                                                                     C-IN-BOR-0049-2001

            United States Department of the Interior

                              Office of Inspector General
                                   Washington, D.C. 20240




                                                                            March 25, 2002

Memorandum

To:      Commissioner, Bureau of Reclamation

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Bureau of Reclamation’s Financial
         Statements for Fiscal Years 2001 and 2000 (No. 2002-I-0024)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Reclamation’s (BOR) financial statements for fiscal year 2001.
The contract required that KPMG conduct its audit in accordance with the Government
Auditing Standards, issued by the Comptroller General of the United States of America;
Office of Management and Budget Bulletin (OMB) No. 01-02, Audit Requirements for
Federal Financial Statements; and the General Accounting Office/President’s Council on
Integrity and Efficiency’s Financial Audit Manual. The Office of Inspector General
(OIG) is responsible for the opinion on the balance sheet and related notes for fiscal year
2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on the BOR’s financial statements or on conclusions about the
effectiveness of internal controls or on conclusions about compliance with laws and
regulations. KPMG is responsible for the auditors’ report on the fiscal year 2001
financial statements (Attachment 1) and for the conclusions expressed in the report.
However, our review disclosed no instances where KPMG did not comply in all material
respects with the Government Auditing Standards.

        In its audit report dated January 9, 2002 KPMG stated that in its opinion the
BOR’s financial statements for fiscal year 2001 present fairly, in all material respects, the
financial position of the BOR as of September 30, 2001 and its operations for the year
then ended in conformity with accounting principles generally accepted in the United
States of America. In our report dated January 9, 2002 (Attachment 2) we stated that in
our opinion the BOR’s consolidated balance sheet presents fairly, in all material respects,
the financial position of the BOR as of September 30, 2000 in conformity with
accounting principles generally accepted in the United States of America.

        KPMG found two reportable material weaknesses and eight reportable conditions
related to internal controls over financial reporting. With regard to compliance with laws
and regulations, KPMG found BOR to be noncompliant with the Debt Collection
Improvement Act of 1996 and that BOR’s financial management systems did not
substantially comply with the OMB Circular A-130, Management of Federal Information
Resources.

       In its January 22, 2002 response to KPMG’s draft audit report, the BOR
concurred, or believed it had complied with, 19 of the 20 recommendations reported in
KPMG’s draft audit report. As a result of BOR’s response, we consider 19
recommendations resolved but not implemented and 1 recommendation unresolved. All
20 recommendations will be referred to the Assistant Secretary for Policy, Management
and Budget for resolution and tracking of implementation.

        The BOR did not concur with recommendation J.2, which recommended that
BOR conduct quarterly reviews of its outstanding undelivered order balances. KPMG
made this recommendation to assist BOR in the transition to the new reporting
requirements of OMB. BOR’s response stated that they would implement semiannual
reviews of outstanding undelivered order balances in compliance with the Departmental
direction issued from the Deputy Assistant Secretary for Budget and Finance.

         Section 5(a) of the Inspector General Act (5 U.S.C App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress. The Independent
Auditors’ Report is intended for the information of management of the BOR, the Office
of Management and Budget and the United States Congress. However, this report is a
matter of public record, and its distribution is not limited.


Attachments (2)

cc:    Chief Financial Officer, Bureau of Reclamation


[CONTACT THE BUREAU OF RECLAMATION FOR INFORMATION ON ITS
FINANCIAL STATEMENTS FOR FISCAL YEAR 2001, WHICH ARE NOT
INCLUDED.]
                                                                                                           Attachment I




                15 W. South Temple, Suite 1500                                    Telephone 801 237-1200
                Salt Lake City, UT 84101



Independent Auditors’ Report


Commissioner of the United States Bureau of Reclamation and Inspector General
U.S. Department of the Interior:

We have audited the accompanying consolidated balance sheet of the United States Bureau of
Reclamation (Reclamation) as of September 30, 2001, and the related consolidated statements of net cost,
changes in net position, and financing and the combined statement of budgetary resources for the year
then ended (hereinafter referred to as financial statements). The objective of our audit was to express an
opinion on the fair presentation of these financial statements. In connection with our audit, we also
considered Reclamation’s internal control over financial reporting and tested Reclamation’s compliance
with certain provisions of applicable laws and regulations that could have a direct and material effect on
its financial statements.

SUMMARY
As stated in our opinion on the financial statements, we concluded that Reclamation’s financial
statements as of and for the year ended September 30, 2001 are presented fairly, in all material respects,
in conformity with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:

    A. Reclamation needs improved security and internal control over its information technology
       systems;

    B. Reclamation needs improved controls over its land inventory;

    C. Reclamation needs improved controls over its construction-in-progress account;

    D. Reclamation needs improved controls over accounting for investigations and development costs;

    E. Reclamation needs an improved financial reporting process related to its allowance for doubtful
       loans receivable account;

    F. Reclamation needs improved controls over its allowance for doubtful accounts receivable
       account;

    G. Reclamation needs improved controls over its accrued liabilities;

    H. Reclamation needs improved controls over its deferment of trust revenue;

    I.   Reclamation needs an improved quality control program; and

    J.   Reclamation needs improved controls over its accounting for undelivered orders.


                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is a
                 member of KPMG International, a Swiss association.
We consider reportable conditions A and B, discussed above, to be material weaknesses.

The results of our tests of compliance with the laws and regulations disclosed instances of noncompliance
with laws and regulations that are required to be reported under Government Auditing Standards and
Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.

The following sections discuss our opinion on Reclamation’s financial statements, our consideration of
Reclamation’s internal control over financial reporting, our tests of Reclamation’s compliance with
certain provisions of applicable laws and regulations, and management’s and our responsibilities.

OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheet of Reclamation as of September 30, 2001,
and the related consolidated statements of net cost, changes in net position, and financing and the
combined statement of budgetary resources for the year then ended.

In our opinion, the financial statements referred to above, present fairly, in all material respects, the
financial position of Reclamation as of September 30, 2001, and its net cost, changes in net position,
budgetary resources, and reconciliation of net cost to budgetary obligations for the year then ended, in
conformity with accounting principles generally accepted in the United States of America.

The information in the Management Discussion and Analysis section, the Required Supplementary
Stewardship Information in the Stewardship Assets section of Supplemental section, and Required
Supplementary Information in the other sections of the Supplemental section are not a required part of the
financial statements, but is supplementary information required by the Federal Accounting Standards
Advisory Board or Office of Management and Budget Bulletin No. 97-01, Form and Content of Agency
Financial Statements, as amended. We have applied certain limited procedures which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Combining Statement of Budgetary Resources is presented for purposes of
additional analysis and is not a required part of the financial statements. Such information has been
subjected to the auditing procedures applied in the audit of the financial statements, and in our opinion, is
fairly stated in all material respects in relation to the financial statements taken as a whole.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect Reclamation’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements.




                                                Page 2 of 18
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. Because of inherent limitations in internal control, misstatements due to error or fraud may
nevertheless occur and not be detected.

We noted certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. We believe that the following reportable conditions are material
weaknesses:

    A. Reclamation Needs Improved Security and Internal Control over Its Information
       Technology Systems

        Condition

        Security and general controls over Reclamation’s financial management systems have not been
        fully implemented. Reclamation has made recent progress in implementing security and controls
        over its information systems. Reclamation has commenced developing policies, directives and
        standards, security mechanisms, and procedures to protect its information technology (IT) assets
        and has established priorities to correct known weaknesses. Many of the weaknesses being
        addressed were identified in independent IT security assessments conducted by the National
        Security Agency (NSA), Sandia National Laboratories (SNL), and Javis Automation and
        Engineering, Inc. that were initiated by Reclamation. However, controls need to be improved in
        the areas described below, as required by OMB Circular A-130, Management of Federal
        Information Resources. These conditions could affect Reclamation’s ability to prevent and detect
        unauthorized changes to financial information, control electronic access to sensitive information,
        and protect its information resources.

                Security Programs

                Security programs, including security policies and a related implementation plan, for
                general support systems and major applications are the foundation of an entity’s security
                control structure and a reflection of senior management’s commitment to addressing
                security risks. As outlined in OMB Circular A-130, an effective security program
                includes a risk assessment process, a certification process, and an effective incident
                response and monitoring capability. Reclamation has developed a security program,
                which provides a high-level strategy for establishing a sound security framework.
                However, the supporting directives and standards that establish processes and procedures
                have just recently been finalized and have not been fully implemented.

                Segregation of Duties

                Reclamation has not ensured proper segregation of duties through its policies,
                procedures, and organizational structure to ensure that one individual cannot control key
                aspects of computer-related operations or financial transactions, and thereby conduct
                unauthorized actions or gain unauthorized access to assets or records.

                Access Controls

                Access controls should provide reasonable assurance that computer resources (data files,
                application programs, and computer-related facilities and equipment) are protected


                                              Page 3 of 18
against unauthorized modification, disclosure, loss, or impairment. The objectives of
limiting access are to ensure that (1) users have only the access needed to perform their
duties; (2) access to very sensitive resources, such as security software programs, is
limited to very few individuals; and (3) employees are restricted from performing
incompatible functions or functions beyond their responsibilities. Access controls over
certain Reclamation systems, applications, and data have not been configured and/or
developed to reduce the risk of unauthorized access. Reclamation has not fully
implemented measures to minimize security risks on the Reclamation Data
Communications Network. Network security configuration settings are not sufficiently
robust and appropriate mechanisms have not been implemented to prevent and monitor
unauthorized access to Reclamation’s network.

Application Software Development and Change Controls

Establishing controls over the modification of application software programs helps to
ensure that only authorized programs and authorized modifications are implemented.
Without proper controls, there is a risk that security features could be inadvertently or
deliberately omitted or “turned-off” or that processing irregularities could be introduced.
Reclamation does not consistently follow established procedures for controlling changes
over application software that would prevent unauthorized programs or modifications to
an existing program from being implemented.

Service Continuity

Losing the capability to process, retrieve, and protect information maintained
electronically could significantly impact Reclamation’s ability to accomplish its mission.
Reclamation has not sufficiently tested information technology continuity controls to
ensure that when unexpected events occur, operations continue without interruption or
are promptly resumed and that data are adequately protected.

National Business Center

The Interior National Business Center (NBC) administers several of Reclamation’s
financial management systems, including: the Federal Personnel and Payroll System
(FPPS), Federal Financial System (FFS), Hyperion, and the Interior Department
Electronic Acquisitions System (IDEAS). Although NBC has recently improved the
security and controls over these information systems, NBC needs to continue
improvements in the areas of: entitywide security planning, configuration of operating
systems, system software controls, software development and change controls, and
service continuity. Weaknesses in these control areas could affect Reclamation’s ability
to prevent and detect unauthorized changes to its financial information and increases
Reclamation’s need for less efficient manual controls to monitor and reconcile financial
information.




                              Page 4 of 18
Recommendation

We recommend that the Commissioner, Bureau of Reclamation:

1.     Continue to develop and implement a formal action plan to improve the security and
       general controls over the financial management systems. This plan should address each
       of the areas discussed above, as well as other areas that might impact the Electronic Data
       Processing (EDP) control environment to ensure adequate security and protection of
       Reclamation’s financial management systems.

2.     Take the necessary steps to improve network security, which would include the
       development of security standards for each platform type and procedures to implement
       and monitor those standards as part of its network security architecture.

3.     Annually obtain assurance (similar to a SAS 70 Type II report) from NBC that adequate
       security and controls are in place over the financial management systems.

Response

A.1    Concur. Reclamation recognized the potential risks related to its Information Technology
       (IT) security practices several years ago and contracted with consultants to assist with
       better defining those risks and recommending changes to improve IT security. At that
       time a formal action plan for implementing those recommendations was developed. Since
       then, Reclamation’s Chief Information Officer has worked with Reclamation’s
       executives to develop strategies for improving IT security Reclamation-wide and to fund
       and accomplish those efforts. In continuing these efforts, and in order to address each of
       the areas discussed in the audit report, Reclamation will add an addendum to this plan
       focusing on security programs, segregation of duties, access controls, application
       software development and change control, service continuity, and the National Business
       Center (NBC).

       The responsible official is Reclamation’s Chief Information Officer. The target date for
       completing the addendum to the existing action plan is July 1, 2002.

A.2    Complied. Prior to and during the period of time encompassed by the audit, Reclamation
       management had taken steps to improve Reclamation’s Data Communication Network
       that were necessary and reasonable and did not jeopardize mission accomplishment.
       Specifically, Reclamation management:

       •   Completed a comprehensive IT security risk assessment to evaluate critical
           vulnerabilities. The assessment was conducted by Sandia National Laboratories (a
           government-owned, contractor-operated division of the Department of Energy) in
           fiscal year 2000.

       •   Published and began implementation of the IT Security Policy in December 2000 and
           Directives and Standards in September 2001.

       •   Published the Network Systems Directives and Standards, which established the
           network security architecture, in September 2001.

       •   Planned, funded, and began implementation of Reclamation’s Data Communication
           Network Perimeter Security Architecture project during fiscal years 2000 and 2001.
           Project tasks are proceeding and scheduled for completion by December 2002.

                                     Page 5 of 18
               Network security has and will continue to improve incrementally as each task is
               accomplished.

           •   Established an IT Security Steering Committee to provide executive-level
               management of the program in fiscal year 2001.

           •   Initiated the process of consolidating platform security standards in general support
               system security plans with the publication of the IT Systems Accreditation Directives
               and Standards in September 2001.

           •   Published and began implementation of the Configuration Management of Security
               Mechanisms Directives and Standards in 2001 that established standards for
               managing security mechanisms such as firewalls, screening routers, intrusion
               detection systems virtual private networks, etc.

           •   Published and began implementation of the IT Intrusion Detection System (IDS)
               Directives and Standards in 2001 which established guidelines for how and where to
               use IDS systems and defines the minimum requirements for operation. Improved
               intrusion detection measures have been implemented to monitor and prevent
               unauthorized access to key financial systems.

           •   Defined an IT security audit process in the Audits and System Logging Directives
               and Standards in September 2001 to ensure business practices comply with IT
               security requirements.

           •   Is in the process of developing and finalizing the Information/Data Security
               Directives and Standards that defines categories of information/data for the purposes
               of security and management. These directives and standards are targeted for
               completion in February 2002.

           Although weaknesses were identified during the audit process, we believe the steps taken
           by management have and will continue to improve the security of Reclamation’s
           systems.

   A.3     Complied. Reclamation has requested annual assurance from the NBC that adequate
           security and controls are in place over the financial management systems that they
           administer for Reclamation.

B. Reclamation Needs Improved Controls over Its Land Inventory

   Condition

   Reclamation did not have a complete and accurate inventory system to support the $1.9 billion of
   land and land rights reported in the financial statements as a component of general property,
   plant, and equipment. The weakness occurred because Reclamation had not established adequate
   procedures for maintaining an accurate inventory of land and land rights and for reconciling its
   subsidiary records with its financial accounting system. Reclamation’s financial accounting
   system support for land and land rights costs is detailed in a cost summary report that had not
   been reconciled with subsidiary records, including individual project plat book maps, which
   contain data from individual land purchase contracts.

   In fiscal year 2000, Reclamation recognized the need for supporting records and issued a five-
   year action plan to develop a complete and accurate land inventory that supported the financial

                                         Page 6 of 18
        accounting system, issued interim guidelines and procedures for reconciling land records, and
        developed a schedule for completing the reconciliation within the five-year plan period. As of
        September 30, 2001, Reclamation has completed approximately 10 percent of the reconciliations
        required per the action plan, and expects to complete the requirements of the plan within the five-
        year plan period.

        Recommendation

        We recommend that the Commissioner, Bureau of Reclamation:

        1.      Continue to complete the reconciliation of the financial accounting system support for
                lands and land rights costs with the subsidiary records, including individual project plat
                book maps, which contain data from individual land purchase contracts.

        2.      Continue to include a material land inventory system internal control weakness in
                Reclamation’s Federal Managers’ Financial Integrity Act (FMFIA) report to the
                Department of the Interior until resolved.

        Response

        B.1     Concur. Reclamation will continue the reconciliation of the financial accounting system
                support for lands and land rights costs with subsidiary records, including individual
                project plat book maps in accordance with the 5-year corrective action plan.

                The responsible officials are the Director, Management Services, and the Director,
                Operations.

        B.2     Concur. Reclamation included the land inventory material weakness in the
                Commissioner’s fiscal years 2000 and 2001 Annual Assurance Statements and will
                continue to report this weakness until corrective actions are implemented.

                The responsible official is the Director, Management Services. The target date for
                reporting this weakness is October 1 of each year until resolved.

We noted the following reportable conditions that are not considered to be material weaknesses:

    C. Reclamation Needs Improved Controls over Its Construction-in-Progress Account

        Condition

        Reclamation did not sufficiently implement internal controls to ensure that the general ledger
        control account for Construction-in-Progress (CIP) was accurate. In Reclamation’s fiscal year
        2000 audit, the Office of Inspector General (OIG) reported a material weakness and a reportable
        condition related to Reclamation’s CIP account. Despite new policy and procedures established
        in response to the OIG finding, Reclamation continued to include in the CIP account $21.2
        million in assets that should have been expensed as incurred. Reclamation reviewed the account
        balances and transactions and made the necessary adjustments.




        Recommendation


                                               Page 7 of 18
   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Implement and follow sufficient procedures, including management oversight, to ensure
           that the CIP account only includes costs for items meeting the definition of capitalizable
           general property, plant, and equipment, and that costs which should be expensed are
           reported in the proper accounting periods.

   Response

   C.1     Concur. Reclamation will implement existing quality assurance procedures, including
           management oversight, to ensure that the Construction on Progress (CIP) account only
           includes costs meeting the definition of general property, plant, and equipment and that
           costs which should be expensed are reported in the proper accounting periods in
           accordance with existing Reclamation Manual guidance. In fiscal year 2001, Reclamation
           issued Reclamation Manual Supplements on construction in progress, plant accounting
           responsibilities, construction in abeyance and nontraditional assets which provide
           guidance for the analysis of the CIP and CIP-related accounts to ensure that costs are
           properly accounted for.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The quality assurance procedures, including management oversight, will be
           implemented by September 30, 2002.

D. Reclamation Needs Improved Controls over Accounting for Investigations and
   Development Costs

   Condition

   Reclamation did not sufficiently implement internal controls to ensure that the general ledger
   control account for investigations and development costs (Investigations) were accurate. In the
   fiscal year 2000 financial statements, Reclamation disclosed a change in accounting principle
   related to the accounting for Investigations. Despite draft policies and procedures established
   governing these types of transactions, Reclamation recorded in the investigations control account
   approximately $51.6 million that should have been expensed and $1.7 million that should have
   been transferred to CIP. When informed of the inconsistencies in the account, Reclamation
   reviewed the account balances and transactions and made the necessary adjustments.

   Recommendation

   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Implement and document sufficient procedures, including formalized policy, quality
           assurance at the regional office level, and management oversight at the Finance and
           Accounting Services level, to ensure that the Investigations and development balances
           are clearly defined and properly and consistently accounted for throughout Reclamation.

   2.      These procedures should include sufficiently documented reviews of these account
           balances to ensure proper and consistent accounting treatment.



   Response



                                         Page 8 of 18
   D.1     Concur. Reclamation will finalize and implement its draft policy and procedures to
           ensure that the Investigations and Development account balances are properly and
           consistently accounted for throughout Reclamation.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for Reclamation’s Finance and Accounting Services to issue
           final policy and procedures is May 31, 2002. The target date for the implementation of
           policy, procedures, and reviews of account balances is September 30, 2002.

   D.2     Concur. Reclamation will sufficiently document reviews of the Investigations and
           Development account balances to ensure proper and consistent accounting treatment.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for the implementation of the review of account balances is
           September 30, 2002.

E. Reclamation Needs an Improved Financial Reporting Process related to its Allowance for
   Doubtful Loans Receivable Account

   Condition

   Reclamation did not have sufficient internal controls to ensure that the general ledger control
   account for the allowance for doubtful loans receivable was accurate. Reclamation’s financial
   statements differentiate between Credit Reform Loans, which are loans made after 1991 subject
   to the provisions of the Credit Reform Act of 1990, and those loans made prior to the
   requirements of the Credit Reform Act (pre-credit reform loans). While an allowance for subsidy
   costs is recorded on the Credit Reform Loans to present the present value of these loans in the
   financial statements, an allowance for uncollectible amounts were not established for pre-credit
   reform loans. When informed of the deficiencies, Reclamation reviewed the account balances and
   transactions and made the necessary adjustments.

   Recommendation

   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Establish procedures to consider the need for an allowance for doubtful loan receivables
           in each reporting period. In so doing, Reclamation should apply the following five
           factors listed in Statement of Federal Financial Accounting Standards (SFFAS) No. 2 to
           both pre-credit reform loans and credit reform loans:

           (1) Current and forecasted international, national or regional economic conditions that
               may affect the performance of the loans.

           (2) Financial and other relevant conditions of borrower.

           (3) Value of collateral to loan balance.

           (4) Changes in recoverable value of collateral.

           (5) Newly developed events that would affect the loans’ performance.

   Response



                                          Page 9 of 18
   E.1     Concur. For the fiscal year 2001 financial statements, Reclamation followed the criteria
           in SFFAS No. 2 for Credit Reform Loans and properly recorded the associated
           allowance. Reclamation has also recorded an adjusting entry to properly record the
           allowance for Pre-Credit Reform Loans. In addition, Reclamation will issue procedures
           for the recording of an allowance for both Credit Reform and Pre-Credit Reform loans.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for Finance and Accounting Services to issue procedures for
           the allowance for Credit Reform and Pre-Credit Reform loans is May 31, 2002. The
           procedures will be implemented by September 30, 2002.

F. Reclamation Needs Improved Controls over Its Allowance for Doubtful Accounts
   Receivable Account

   Condition

   Reclamation did not have sufficient internal controls to ensure that the general ledger control
   account for the allowance for doubtful accounts receivable was adequate. The accounts
   receivable account included a significant amount of aged balances where collectibility is
   uncertain, which were not reserved for as an allowance for doubtful accounts. When informed of
   the deficiencies, Reclamation reviewed the account balances and transactions and made the
   necessary adjustments.

   Further, two regional offices within Reclamation are not notifying on a timely basis the Secretary
   of the Treasury of all eligible receivables aged greater than 180 days for referral to Treasury
   Cross Servicing, as required by the Debt Collection Improvement Act of 1996.

   Recommendation

   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Improve quality assurance over the allowance for doubtful accounts receivable at the
           regional offices and Finance and Accounting Services levels.

   2.      Record an adequate allowance for doubtful accounts where collectibility is uncertain.

   3.      Ensure collection efforts regarding these past due account receivable balances, notify the
           Secretary of the Treasury of all eligible accounts aged greater than 180 days, and write
           off the balances considered uncollectible, if necessary.

   Response

   F.1     Concur. Reclamation will ensure implementation of existing quality assurance
           procedures at the regional office and Finance and Accounting Services levels for the
           process of recording the allowance for doubtful accounts receivable.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for implementation of the procedures is September 30, 2002.

   F.2     Concur. For fiscal year 2001 financial statement reporting, Reclamation analyzed
           accounts receivable balances and recorded an allowance for doubtful accounts where
           collectibility was uncertain. Reclamation will evaluate the process of determining
           sufficient balances for the Allowance for Doubtful Accounts account. If necessary,


                                        Page 10 of 18
           Finance Accounting Services will issue additional guidance on the reporting of allowance
           for doubtful accounts.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for implementation of guidance and procedures is September
           30, 2002.

   F.3     Concur. Reclamation will emphasize the need to implement and follow existing
           procedures, including the transfer of debts aged greater than 180 days to the Department
           of the Treasury for collection and the writeoff of balances considered uncollectible, if
           necessary.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for implementation of the procedures is September 30, 2002.

G. Reclamation Needs Improved Controls over Its Accrued Liabilities

   Condition

   Reclamation did not implement or enforce controls sufficient to ensure that its regional offices
   are making the proper accruals for accounts payable and the associated asset or expense.
   Exceptions were noted related to improper or incomplete accruals at each regional office, and
   included such things as accruals not made, accruals made for the obligation balances rather than
   the amount that should be recognized during the current fiscal year, accruals made and reversed
   in the same fiscal year prior to payment, resulting in no accruals at year-end, accruals made for
   insufficient balances, lack of sufficient documentation supporting the accrual amounts, accruals
   made but not being reviewed at year-end to determine if the accrual balance still exists, and
   accruals not reversed in the fiscal year payments are made. Certain accruals were found to be
   significantly aged, and upon further review were determined to be invalid. Improperly accounting
   for expenses in the appropriate period results in a misstated accounts payable balance and
   associated asset or expense balance. Reclamation reviewed the account balances and transactions
   and made the necessary adjustments.

   Recommendation

   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Implement and follow quality controls to ensure that accruals are complete, exist, are
           accurately recorded, and are adequately supported by documentation.

   2.      Implement oversight procedures to ensure compliance with current Reclamation policies
           and improved coordination within Reclamation’s finance and program organizations.

   Response

   G.1     Concur. Reclamation will implement and follow existing quality controls as stated in
           Reclamation’s Manual Supplement, Estimating Contract Earnings (Accruals) and in the
           Fiscal Year 2001 Closing Procedures to ensure that accruals are accurately recorded and
           adequately supported by documentation.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for implementation of the procedures is September 30, 2002.



                                        Page 11 of 18
     G.2     Concur. Reclamation will implement a management oversight process to ensure
             compliance with current Reclamation policies and improve coordination within
             Reclamation’s finance and program organizations for accounts affected by accruals.

             The responsible officials are the Director, Management Services, and the Director,
             Operations. The target date for implementation of the management oversight process is
             September 30, 2002.

H. Reclamation Needs Improved Controls over Its Deferment of Trust Revenue

     Condition

     Reclamation did not establish an appropriate accounting model to ensure that the general ledger
     control accounts for revenue and deferred revenue were accurate. Reclamation has established
     several trust accounts whereby Reclamation receives advance payments for services to be
     provided in the future. However, Reclamation has not established posting routines in its
     accounting system that allow for the deferral of revenue not applicable to the current fiscal year.
     Accordingly, $7.3 million was recorded as fiscal year 2001 revenue, which should be deferred to
     future periods. When informed of the deficiencies, Reclamation reviewed the account balances
     and transactions and made the necessary adjustments.

     Recommendation

     We recommend that the Commissioner, Bureau of Reclamation:

     1.      Establish procedures to ensure that trust accounts and similar transactions are monitored,
             such that revenue not applicable to the current fiscal year is properly deferred and
             appropriately amortized.

     Response

     H.1     Concur. Reclamation will establish accounting models and sufficient procedures to
             ensure that all available receipts (trust and special receipts accounts) are recorded as
             advances (unearned revenue) for the portion of cash receipts not yet earned. Reclamation
             has made all the necessary adjustments to ensure all revenue not applicable to fiscal year
             2001 was properly deferred.

             The responsible official is the Director, Management Services. Finance and Accounting
             Services will establish accounting models and procedures by May 31, 2002. The target
             date for implementation of these procedures is September 30, 2002.

I.   Reclamation Needs an Improved Quality Control Program

     Condition

     Reclamation did not have a sufficient quality control program to ensure that previously
     established Reclamation Manual supplements are completely and consistently implemented
     among the various regional offices. Reclamation Manual supplements establish accounting
     policies and procedures based on appropriate authoritative literature, and are created by the
     Finance and Accounting Services Group, housed in the Management Services Office of
     Reclamation. However, Finance and Accounting Services, or another group, does not perform
     compliance review procedures to ensure that the Reclamation Manual supplements are
     implemented fully and consistently at each regional office. As a result, certain balances, including


                                           Page 12 of 18
   CIP and Investigations discussed above, did not properly and consistently reflect the
   requirements of the Reclamation Manual supplements.

   Recommendation

   We recommend that the Commissioner, Bureau of Reclamation:

   1.      Implement a practice whereby Reclamation’s policy making body is empowered to
           ensure compliance with the Reclamation Manual supplements among the regions.

   2.      Establish procedures to address the completeness, accuracy, and consistency of
           implementation of Reclamation Manual supplements among the various regional offices.

   Response

   I.1     Concur. Reclamation has recognized the need for an improved financial oversight
           function; Reclamation management formed the Chief Financial Officer (CFO) Audit
           Projects Team to address various financial management issues, including oversight.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for developing a plan for the oversight and quality assurance
           function is July 1, 2002. The target date for implementation of an oversight program is
           September 30, 2003.

   I.2     Concur. Existing Reclamation Manual supplements provide procedures to address
           completeness, accuracy, and consistency of financial information for each financial-
           management topic addressed. For example, the Reclamation Manual Supplement, Plant
           Accounting-Responsibilities, establishes procedures for the consistent application and
           accuracy of Reclamation’s general property, plant, and equipment accounts. However, as
           mentioned above, Reclamation has recognized the need for an improved financial-
           oversight function to ensure implementation of the Reclamation Manual guidance.
           Reclamation will establish additional procedures as necessary.

           The responsible officials are the Director, Management Services, and the Director,
           Operations. The target date for establishing procedures, as necessary, to address the
           completeness, accuracy, and consistency of implementation of Reclamation Manual
           supplements among the various regional offices is July 1, 2002. The target date for
           implementation of an oversight program is September 30, 2003.

J. Reclamation Needs Improved Controls over Its Accounting for Undelivered Orders

   Condition

   Reclamation has a process in place to review outstanding undelivered orders to ensure validity of
   the outstanding balance, especially those items greater than one year old. However, Reclamation
   did not fully implement the controls identified in the Reclamation Manual supplement Fin 03-20-
   20-100-B, Reconciliation of SGL Accounts, and the Finance and Accounting Services year-end
   memorandum to ensure that the remaining balances represent valid undelivered orders. We
   reviewed a sample of the outstanding undelivered orders account at year-end and determined that
   Reclamation continued to account for balances that were no longer valid. Further, Reclamation
   has not established policies and procedures to ensure that recovered undelivered orders are
   accounted for in accordance with the guidance in the OMB Budget Accounting Guide. When



                                        Page 13 of 18
        informed of the deficiencies, Reclamation reviewed the account balances and transactions and
        made the necessary adjustments.

        Recommendation

        We recommend that the Commissioner, Bureau of Reclamation:

        1.      Improve the process for reviewing undelivered orders by implementing formal review
                requirements, both at Finance and Accounting Services and regional office levels, and
                following established criteria to ensure objectivity and financial statement accuracy.

        2.      Although the current departmental guidance requires that these amounts be reviewed
                semi-annually, we recommend quarterly reviews of outstanding balances to assist in the
                transition to semi-annual and quarterly reporting for fiscal years 2002 and 2003,
                respectively.

        3.      Establish policies and procedures to ensure that recovered undelivered orders are
                accounted for in accordance with the guidance in the OMB Budget Accounting Guide.

        Response

        J.1     Concur. Reclamation will improve its formal review process for outstanding undelivered
                orders to follow established criteria.

                The responsible officials are the Director, Management Services, and the Director,
                Operations. The target date for implementation of the formal review process is September
                30, 2002.

        J.2     Nonconcur. Reclamation will implement semiannual reviews of outstanding undelivered
                orders balances in compliance with direction issued June 15, 2001, by the Department of
                the Interior’s Deputy Assistant Secretary for Budget and Finance.

                The responsible officials are the Director, Management Services, and the Director,
                Operations. The target date for implementation of the semiannual reviews of outstanding
                undelivered orders balances is September 30, 2002.

        J.3     Concur. Reclamation will establish and improve its existing process for tracking
                recovered undelivered orders (prior year recoveries) and will implement policies and
                procedures to ensure that recovered undelivered orders are accounted for in accordance
                with the guidance in the OMB Budget Accounting Guide.

                The responsible officials are the Director, Management Services, and the Director,
                Operations. The target date for establishing and implementing the policies and
                procedures is September 30, 2002.

A summary of the status of prior year reportable conditions is included as Exhibit I. We also noted other
matters involving internal control over financial reporting and its operation that we have reported to the
management of Reclamation in a separate letter dated January 9, 2002.




                                              Page 14 of 18
COMPLIANCE WITH LAWS AND REGULATIONS
The results of our tests of compliance with the laws and regulations described in the Responsibilities
section of this report, exclusive of the Federal Financial Management Improvement Act (FFMIA) of
1996, disclosed one instance of noncompliance that is required to be reported herein under Government
Auditing Standards and OMB Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

       Condition

       Reclamation is not in compliance with the requirements of the Debt Collection Improvement Act
       of 1996. We noted instances where the Secretary of the Treasury had not been notified of eligible
       account receivable balances that are aged greater than 180 days.

       Recommendation

       Our recommendations are addressed in the reportable condition discussed in the Internal Control
       over Financial Reporting section of our report.

The results of our tests of FFMIA disclosed instances, described below, where Reclamation’s financial
management systems did not substantially comply with the Federal financial management systems’
requirements.

       Condition

       Reclamation is not in compliance with OMB Circular A-130, Management of Federal
       Information Resources. We noted weaknesses in Reclamation’s computer security controls
       including entitywide security, access controls, segregation of duties, system software controls,
       software development and change controls, service continuity, and network security.

       Recommendation

       Our recommendations are addressed in the material weakness discussed in the Internal Control
       over Financial Reporting section of our report.

The results of our tests disclosed no instances in which management did not substantially comply with
accounting standards and the United States Government Standard General Ledger at the transaction level
requirements.




                                            Page 15 of 18
RESPONSIBILITIES
Management’s Responsibility
The Government Management Reform Act (GMRA) of 1994 requires federal agencies to report annually
to Congress on their financial status and any other information needed to fairly present their financial
position and results of operations. To meet the GMRA reporting requirements, Reclamation prepares
annual financial statements.

Management is responsible for:

    •   Preparing the financial statements in conformity with accounting principles generally accepted in
        the United States of America;

    •   Establishing and maintaining internal controls over financial reporting; required supplementary
        stewardship information and performance measures; and

    •   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies.

Auditors’ Responsibility
Our responsibility is to express an opinion on the fiscal year 2001 financial statements of Reclamation
based on our audit. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States, and OMB Bulletin No. 01-
02. Those standards and OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material misstatement.

An audit includes:

    •   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
        statements;

    •   Assessing the accounting principles used and significant estimates made by management; and

    •   Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2001 audit, we considered Reclamation’s internal control over
financial reporting by obtaining an understanding of Reclamation’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on internal controls over financial
reporting. Consequently, we do not provide an opinion on internal control over financial reporting.




                                              Page 16 of 18
As required by OMB Bulletin No. 01-02, we considered Reclamation’s internal control over the Required
Supplementary Stewardship Information in the Stewardship Assets section of the Supplemental section
by obtaining an understanding of Reclamation’s internal control, determining whether these internal
controls had been placed in operation, assessing control risk, and performing tests of controls. Our
procedures were not designed to provide assurance on internal control over Required Supplementary
Stewardship Information, and accordingly, we do not provide an opinion on such controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management’s Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on internal
control over performance measures, and accordingly, we do not provide an opinion on such controls.

As part of obtaining reasonable assurance about whether Reclamation’s fiscal year 2001 financial
statements are free of material misstatement, we performed tests of Reclamation’s compliance with
certain provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We
limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to Reclamation. Providing an opinion on compliance
with laws and regulations was not an objective of our audit, and accordingly, we do not express such an
opinion.

Under FFMIA, we are required to report whether Reclamation’s financial management systems
substantially comply with (1) federal financial management systems requirements, (2) applicable federal
accounting standards, and (3) the United States Government Standard General Ledger at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA Section 803(a)
requirements.

DISTRIBUTION

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB, and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




January 9, 2002




                                              Page 17 of 18
                                                                                  Exhibit I

                            Bureau of Reclamation
           Summary of the Status of Prior Year Reportable Conditions
                             September 30, 2001


Ref                         Condition                                  Status

A     Reclamation Needs Improved Controls over Land            This condition has not
      Inventory                                                been corrected and is
                                                               repeated in FY 2001.

B     Reclamation Needs Improved Controls over Construction-   This condition has not
      in-Progress Account                                      been corrected and is
                                                               repeated in FY 2001.

C     Inconsistent Accounting Treatment                        This condition has been
                                                                      corrected.

D     Reclamation Needs Improved Controls over Prior Period    This condition has been
      Activity                                                        corrected.

E     Reclamation Needs Improved Controls over Undelivered     This condition has not
      Orders                                                   been corrected and is
                                                               repeated in FY 2001.

F     Reclamation Needs Improved Controls over Prior Period    This condition has been
      Revenue Recognition                                             corrected.




                                   Page 18 of 18
                                                                     C-IN-BOR-0049-2001

            United States Department of the Interior

                              Office of Inspector General
                                   Washington, D.C. 20240




                                                                             March 25, 2002

Memorandum

To:      Commissioner, Bureau of Reclamation

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Bureau of Reclamation’s Financial
         Statements for Fiscal Years 2001 and 2000 (No. 2002-I-0024)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Reclamation’s (BOR) financial statements for fiscal year 2001.
The contract required that KPMG conduct its audit in accordance with the Government
Auditing Standards, issued by the Comptroller General of the United States of America;
Office of Management and Budget Bulletin (OMB) No. 01-02, Audit Requirements for
Federal Financial Statements; and the General Accounting Office/President’s Council on
Integrity and Efficiency’s Financial Audit Manual. The Office of Inspector General
(OIG) is responsible for the opinion on the balance sheet and related notes for fiscal year
2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on the BOR’s financial statements or on conclusions about the
effectiveness of internal controls or on conclusions about compliance with laws and
regulations. KPMG is responsible for the auditors’ report on the fiscal year 2001
financial statements (Attachment 1) and for the conclusions expressed in the report.
However, our review disclosed no instances where KPMG did not comply in all material
respects with the Government Auditing Standards.

        In its audit report dated January 9, 2002 KPMG stated that in its opinion the
BOR’s financial statements for fiscal year 2001 present fairly, in all material respects, the
financial position of the BOR as of September 30, 2001 and its operations for the year
then ended in conformity with accounting principles generally accepted in the United
States of America. In our report dated January 9, 2002 (Attachment 2) we stated that in
our opinion the BOR’s consolidated balance sheet presents fairly, in all material respects,
the financial position of the BOR as of September 30, 2000 in conformity with
accounting principles generally accepted in the United States of America.

        KPMG found two reportable material weaknesses and eight reportable conditions
related to internal controls over financial reporting. With regard to compliance with laws
and regulations, KPMG found BOR to be noncompliant with the Debt Collection
Improvement Act of 1996 and that BOR’s financial management systems did not
substantially comply with the OMB Circular A-130, Management of Federal Information
Resources.

       In its January 22, 2002 response to KPMG’s draft audit report, the BOR
concurred, or believed it had complied with, 19 of the 20 recommendations reported in
KPMG’s draft audit report. As a result of BOR’s response, we consider 19
recommendations resolved but not implemented and 1 recommendation unresolved. All
20 recommendations will be referred to the Assistant Secretary for Policy, Management
and Budget for resolution and tracking of implementation.

        The BOR did not concur with recommendation J.2, which recommended that
BOR conduct quarterly reviews of its outstanding undelivered order balances. KPMG
made this recommendation to assist BOR in the transition to the new reporting
requirements of OMB. BOR’s response stated that they would implement semiannual
reviews of outstanding undelivered order balances in compliance with the Departmental
direction issued from the Deputy Assistant Secretary for Budget and Finance.

         Section 5(a) of the Inspector General Act (5 U.S.C App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress. The Independent
Auditors’ Report is intended for the information of management of the BOR, the Office
of Management and Budget and the United States Congress. However, this report is a
matter of public record, and its distribution is not limited.


Attachments (2)

cc:    Chief Financial Officer, Bureau of Reclamation
